                              CLOSEOUT FOR M93030011
      This case-was brought to the attention of OIG by -(affiliation
unknown) in a letter dated March 9, 1993. The complainant enclosed a copy of- a
                                                                                    Attorney, NY,
                                                                                   e              w
                                                                               t is alleged that the
                                                                                    District of New
York concerning his scientific experience. It is alleged that-stated               during an initial
deposition that he received his Ph.D. in-            in 1945 under the tutelage of

U m       and that in a subsequent deposition, he stated that his Ph.D. work was
               The complainant, in light of the alleged perjury, brings into question
scientific credentials. He alleges that if                 received his degree in 1945 from the
                           hen he could not have worked under                          who was not




      -=
                                                      faculty un-it

       The Office of Investigation reviewed all available proposals submitted to NSF b y m
      and found no evidence of misrepresentation of his scientific credentials or experience.
             examined                immigration fdes and discovered that he had been afFiliated
                                        worked with                       as a part of a team
sometime
with      between                        the evidence-Ould                   find indicated that
           provided no incorrect information in his testimony. The investigators closed this case
because of a lack of facts substantiating the allegation.

       OIG found that there was no substance to the allegation of misrepresentation of scientific
credentials or experience and closed this case without a finding of misconduct.




cc:    Signatories
       Inspector General
